                               NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOLILEVARD
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

MEMORANDUM


Date:          May 2,2008

To:            Mary F. Santonastasso
               Division Director, Division of Institution and Award Support
               (BFNDIAS)

               Karen Tiplady
               Division Director, Division of Grants and Agreements (BFAfDGA)

From:


Subject:       OIG Report Number 08- 1-010
               Audit of Effort Reporting System, University of California - San Diego

        Attached is the final report prepared by McBride Lock & Associates, an independent
public accounting firm, on the audit of the payroll distribution and effort reporting system used
by the University of California, San Diego (UCSD) to support salary and wages charged to NSF
grants. The University's comments to the draR report have been summarized after the
recommendations for each audit finding and the auditor's response has been provided to these
comments. The full text of the University's comments is included as Appendix B to the audit
report.

        The audit found that UCSD generally has a well established and sound Federal grants
management system. Officials in the University's central grants administration offices, internal
audit office, and Academic Departments take seriously their responsibility to ensure employee
salary charges to Federal sponsored projects reasonably reflected the actual work performed.
However, because the University has decentralized many of its grants management functions to
the Academic Departments, UCSD needs to improve its internal controls to ensure proper
implementation and oversight of its labor effort reporting system. Without timely or appropriate
controls for certifying labor effort reports, UCSD has less assurance that the certifications are
reliable and reasonably support salaries and wages charged to NSF's sponsored projects.

        We consider UCSD's internal control procedural weaknesses identified in the audit
findings to be significant. Accordingly, we request that your office work with the University and
the cognizant audit agency, the Department of Health and Human Services (DHHS), to develop a
written Corrective Action Plan detailing specific actions taken and/or planned to address each
audit recommendation. Milestone dates should be provided for corrective actions not yet
completed.

        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that UCSD has adequately addressed the recommendation and proposed corrective actions have
been satisfactorily implemented. Please note that we have sent a copy of the audit report under
separate cover to Jon D. Crowder of DHHS-OIG.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

      •   Provided a detailed audit program for the agreed upon procedures review and ensured
          M.D. Oppenheim’s approach and planning for the audit was appropriate;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored progress of the audit at key points by accompanying McBride Lock &
          Associates auditors onsite at the grantee;
      •   Coordinated periodic meetings with McBride Lock & Associates and OIG management
          to discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by McBride Lock & Associates, to ensure
          compliance with Generally Accepted Government Auditing Standards and the NSF Audit
          Program; and
      •   Coordinated issuance of the audit report.

        McBride Lock & Associates is responsible for the attached audit report on UCSD’s
payroll distribution and effort reporting system and the conclusions expressed in the audit report.
The NSF OIG does not express an opinion on the audit report’s conclusions.

      We appreciate the cooperation that was extended to us during our review. If you have
any questions, please feel free to call me at 703-292-5005 or James M, Berry Schneck at 703-
292-8627.

Enclosure

cc:       Gilbert Tran, Technical Manager, Office of Management and Budget
          Thomas Cooley, Director and Chief Financial Officer, BFA/OAD
          Alexander Wynnyk, Branch Chief, BFA/DIAS
          Charles Zeigler, Special Assistant, BFA/DIAS




                                                2
    Audit of Payroll Distribution System
    University of California, San Diego
          San Diego, California


        National Science Foundation
         Office of Inspector General

                  May 2, 2008
                  OIG 08-1-010
 

 




                   Audit Performed by:
               McBride Lock & Associates
               Certified Public Accountants
                     1111 Main Street
                 Kansas City, Mo. 64105



                              
                                 EXECUTIVE SUMMARY

        This audit report provides the results of our review of the Payroll Activity Report (PAR)
system used by the University of California, San Diego (UCSD) to validate salaries and wages
charged to National Science Foundation (NSF) grants. In fiscal year (FY) 2006, UCSD had total
Federally-sponsored projects of approximately $733 million, of which $104 million, or about 14
percent, were funded by NSF. Of this amount, more than $28 million, or 27 percent, were for
labor costs directly charged to NSF awards. This audit is one of a series of Office of Inspector
General (OIG) reviews of the labor effort distribution systems being conducted at NSF’s top-
funded universities, in order to assess the adequacy of internal controls to ensure salary and wage
costs claimed on NSF grants are properly managed, accounted for and monitored.
        Our review disclosed that UCSD generally has a well established and sound Federal
grants management system. Officials in the University’s central grants administration offices,
internal audit office, and Academic Departments take seriously their responsibility to ensure
employee salary charges to Federal sponsored projects reasonably reflected the actual work
performed. Such officials were generally knowledgeable of their labor effort reporting
responsibilities and appear diligent in accomplishing their assigned tasks. Review of 30 sampled
employees found that PAR effort certifications generally supported the FY 2006 salary costs of
$1.2 million directly charged to NSF grants.
        However, because UCSD has decentralized its grant management functions and
responsibilities to the Academic Departments, improved internal controls were required to ensure
proper oversight and implementation of its PAR labor effort reporting system. Without
sufficient controls, we found that (i) 60 of the 69 PARs, representing 64 percent of FY 2006
salaries tested, were certified late or were not dated and (ii) six PARs were not signed or did not
include proper confirmation of the reported labor effort. In addition, four of the 30 sample
employees reported during interviews that 5 to 20 percent of their labor effort was expended on
administrative activities not directly benefiting NSF awards, while an additional three employees
charged salaries to sponsored projects exceeding NSF’s faculty summer salary limitations or
UCSD’s incentive award policies.
        Without timely or effective controls for certifying labor effort reports, UCSD can provide
less assurance to Federal sponsoring agencies that PARs are reliable in reasonably supporting
salary charges to sponsored projects. As a result, we identified that UCSD inappropriately
charged $35,050 (three percent) of salary charges to NSF awards for activities not directly
benefiting the sponsored projects and $16,267 (one percent) for salaries exceeding NSF or
University compensation policies. In addition, UCSD lacked adequately completed PAR
certifications to support an additional $49,595 (four percent) of FY 2006 NSF salary charges
reviewed. Furthermore, late PAR certification or inadequate documentation to determine
approval dates for 64 percent of NSF salary charges reviewed increases the risk that such
certifications are not reliable, particularly given that 11 percent of such labor costs were certified
more than six months late or were not dated. The significant nature of these control weaknesses
raises concerns about the reasonableness and allowability of the remaining $27.5 million of FY
2006 labor charges to NSF grants, and could affect the reliability of the salary portion of
UCSD’s other $629 million of Federal awards.
       These weaknesses occurred because UCSD has not established adequate internal controls
to provide for effective management and oversight of its labor effort reporting system given its

                                                  i
decentralized organizational structure for Federal grants management. The University has not
established sufficient detailed written guidance for all PAR processes to ensure full compliance
with Federal requirements, effectively communicated University policies and procedures to all
staff involved in the PAR process, or performed adequate monitoring to ensure all UCSD
Departments complied with established PAR policies and procedures. Furthermore, contrary to
Federal standards, the University has not a performed an appropriately broad-based and frequent
independent internal evaluation to ensure the payroll distribution and effort reporting system’s
effectiveness, thereby forfeiting an opportunity to identify and address any needed improvements
        To address the noted weaknesses, we made recommendations to improve UCSD’s
internal control structure for PAR management and oversight. The recommendations were
primarily directed toward enhancing the University’s centralized oversight of the labor effort
reporting system by (i) updating and revising campus policies to fully comply with Federal
regulations, (ii) improving its communication of labor effort reporting policies and processes to
campus personnel, and (iii) performing periodic broad-based evaluations of the labor effort
reporting system. Also, UCSD has a current opportunity, as it completes the implementation of
its new automated labor effort reporting system, to incorporate edit functions and adopt
computer-assisted audit techniques. Such electronic monitoring tools should significantly
improve the timeliness of the PAR labor effort certification process and allow the University to
detect and eliminate the instances of incomplete PAR labor certifications identified during our
audit.

        A draft audit report requesting comments on the findings and recommendations was
issued to UCSD. The University mainly concurred with the audit findings and recommendations
and agreed to implement the necessary changes to its policies and procedures. UCSD’s proposed
actions, once implemented, should address our audit recommendations. NSF should work with
the cognizant audit agency to ensure the University develops an acceptable corrective action plan
to resolve each audit recommendation. We have summarized the University’s responses and
provided our comments after each recommendation in the report. Also, UCSD’s comments to
the draft report are included in their entirety as Appendix B to this report.




                                               ii
                                                       Table of Contents


Executive Summary..................................................................................................................... i


Introduction

          Background..…………..…………………………….……………………………………1

          Audit Objectives, Scope, and Methodology...……………………………………………2


Findings and Recommendations

          1. Insufficient Administrative Oversight of the University’s PAR System Affects
             Reliability of Effort Reports………………………………………………….…........ 5

          2. UCSD Lacks Comprehensive Policies to Ensure Full Compliance With Federal
             Grant Requirements..….……………………………………………………..……. 20

Appendices

          Appendix A – Schedule of Fiscal Year 2006 Questioned Salaries, Fringe Benefits,
                       and Related Indirect Costs……………………………………………….23

          Appendix B – University of California, San Diego’s Response to Draft Audit Report…24


                                                                ACRONYMS

                     NSF                  National Science Foundation
                     OIG                  Office of Inspector General
                     OMB                  U. S. Office of Management and Budget
                     PAR                  Personnel Activity Report
                     PI                   Principal Investigator
                     AMAS                 Audit and Management Advisory Services
                     Calit2               California Institute for Telecommunications and Information
                                          Technology
                     OCGA                 Office of Contract and Grant Administration
                     OPAFS                Office of Post Award Financial Services
                     SDSC                 San Diego Supercomputer Center
                     SIO                  Scripps Institution of Oceanography
                     UCSD                 University of California, San Diego




                                                                   iii
                                     INTRODUCTION

BACKGROUND
        Approximately one-third of the National Science Foundation (NSF) award funds are
provided to universities for salary and wages, amounting to about $1.3 billion annually. Also, in
recent years, there have been several civil settlements involving overcharges of labor costs to
Federal grants at several major universities, amounting to millions of dollars, including some
funded by NSF. Because of these legal actions and the material amounts of labor costs paid from
NSF awards, the Office of Inspector General (OIG) is undertaking a series of reviews of the labor
effort distribution systems at NSF’s top-funded universities in order to assess the adequacy of
internal controls to ensure salary and wage costs claimed on NSF grants are properly managed,
accounted for, and monitored. This audit, involving the University of California, San Diego
(UCSD), is one of the planned reviews of such labor effort distribution systems.
       The University is located in La Jolla, California on 1,200 acres along the Pacific Ocean in
San Diego County. UCSD’s fundamental missions are teaching, research, and public service.
Total student enrollment, as reported in the 2006 Annual Report, consisted of 21,369
undergraduate and 4,878 graduate and medical students. The University has 24,661 employees,
including 7,319 faculty and other academic staff. UCSD derives the majority of its funding from
sponsored research projects, student tuition, and state subsidies.
       UCSD is a major research institution, with total FY 2006 research funding of $733 million,
of which $104 million was provided by NSF. The National Research Council ranks UCSD 10th in
the nation in the quality of its faculty and graduate programs and ranks the University’s
oceanography and neurosciences programs 1st in the nation. Specifically, UCSD’s graduate and
professional schools include the Scripps Institution of Oceanography (SIO), the San Diego
Supercomputer Center (SDSC), and the California Institute for Telecommunications and
Information Technology (Calit2), all of which receive substantial NSF funding.
      The University’s management and oversight of Federal grant programs is shared between its
Office of Contract and Grant Administration (OCGA) and the Office of Post Award Financial
Services (OPAFS). Primarily, OCGA is tasked with pre-award grant activities involving grant
proposal review, proposal submission, award negotiation, and award acceptance. On the other
hand, OPAFS provides post-award grant administration, and thus is responsible for financial
administration and monitoring of active Federal awards. Specifically, the Office is responsible for
(i) monitoring and assisting with campus regulatory compliance, (ii) implementing appropriate
employee grants management training programs, and (iii) handling Federal grant cost allowability
issues. Also, OPAFS is responsible for compiling and distributing the Personnel Activity Reports
(PAR) to all appropriate Departments to provide for the certification of actual work effort devoted
to Federally-sponsored projects. PARs are used for labor effort certifications in all UCSD
Academic Departments, except SIO, on a quarterly basis. SIO personnel are required to record
their daily effort on timesheets that are totaled, submitted, reviewed, and approved monthly. The
monthly timesheets are used in lieu of the quarterly PARs to provide support for labor charges to
Federal sponsored projects.
     Within each Academic Department, senior grants administrative officials are tasked with the
management and oversight of sponsored projects to ensure compliance with Federal and
University policies and procedures. Such officials typically assist and advise faculty members

                                                1
with the management of Federal grants and are responsible for ensuring that award accounts and
budgets are created accurately in the University’s financial system, award expenditures are
monitored on a monthly basis, and charges to Federal awards are appropriate. They also ensure
that PIs confirm the reasonableness of employee salary charges on PARs for themselves and the
employees working on their sponsored research projects. Nevertheless, PIs have primary
responsibility for all aspects of Federal grants including approval of all charges and ensuring that
the research is conducted in accordance with the award terms and conditions.


OBJECTIVES, SCOPE, AND METHODOLOGY

       Audit Objectives. Our audit objectives were to: (a) evaluate whether UCSD internal
controls are adequate to properly manage, account for, monitor, and report salary and wage costs
on NSF grants in accordance with OMB and NSF grant requirements and (b) determine if salaries
and wages charged to NSF awards are allowable, allocable, and reasonable in accordance with
Federal cost principles and NSF award terms and conditions.
        Scope and Methodology: The audit effort focused on UCSD’s Personnel Activity Report
(PAR) system and accordingly included the review of internal controls for ensuring that labor
costs charged to NSF (i) were actually incurred, (ii) benefited NSF awards, (iii) were accurately
and timely recorded and charged to NSF, and (iv) were for allowable and allocable-type activities
as required by Federal and NSF requirements. In addition, the level of PI effort pledged in grant
proposal and award documents was evaluated in relation to the effort actually contributed by the
faculty member to accomplish award objectives.
         To address each of these control objectives, the NSF-OIG engaged a statistician to provide
expert advice in selecting a statistical sample of employee salary records for testing. The use of
statistical tools and methodology will enable projecting the audit results to the entire population of
universities to be included in the planned reviews of payroll distribution systems nationwide.
However, due to the small statistical sample size of 30 employees tested, we are not able to make
any projections to the total UCSD population of labor costs charged to NSF grants. Specifically,
the FY 2006 salary and wage costs for the 30 sample employees tested amounted to $1,194,918.
Of the 30 sample employees, 23 individuals submitted 69 PARs certifying labor effort for 75
percent of total salaries tested and seven individuals used monthly time records, for which
confirmation was not required. Our statistical sample was derived from a total population of 1,636
UCSD employees, who charged salaries of $28,673,611 to NSF grants during FY 2006. This
population excluded (a) any employee with total salary costs of $100 or less and (b) all salary
charges for undergraduate students. These amounts were excluded because of their small dollar
value and the difficulty in locating undergraduate students for personal interviews.
        We compared UCSD’s policies and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards, and we interviewed UCSD personnel to gain an
understanding of the controls in place to ensure salary and wages charged to NSF awards were
reasonable and allowable. For each statistically selected salary record, we obtained the following
documentation to determine whether labor costs UCSD charged NSF awards met the control
objectives:

   •   PAR effort reports or time records documenting 100 percent of each employee’s
       compensation allocated to sponsored and non-sponsored projects for each reporting period.

                                                  2
   •   Appointment letters or other documents supporting the approved annual salary for
       employees.

   •   Distribution of Payroll Expense Summary detailing the actual salary and wages charged to
       sponsored projects and other activities for each employee during each reporting period.

   •   Award documents to determine whether the grant had any terms and conditions that would
       affect allowable labor charges to the award.
      To ensure that salary and wage costs charged to NSF awards were incurred and benefited
NSF awards, we corroborated the information on PAR reports and monthly time records by
interviewing the 30 sampled employees. We inquired whether (a) the labor charges documented
were actually incurred on projects and activities, (b) the approximate percentage of effort actually
worked on each sponsored project and/or activity was reasonably consistent with NSF labor
charges, and (c) the type of work performed on NSF projects was generally consistent with the
scope of the awards. We also interviewed selected administrative grants managers in Academic
Departments to determine procedures for processing and monitoring employee salary charges to
Federal grants. Additionally, we interviewed selected PIs to determine the number of projects and
personnel they were responsible for and their processes for verifying work performance prior to
approving and signing PAR effort reports.
      To confirm that faculty effort pledged in grant proposals was actually contributed to
accomplish grant objectives, we reviewed processes for reporting and tracking PI effort and
whether the associated salary costs were properly included in the research organized base for
computation of the University’s indirect cost rate. We reviewed award documents for all Federal
grants that a faculty member worked on during FY 2006 to determine the effort pledged on each
project and compared this proposed effort to the approximate percentage of actual effort worked
on the project. In addition, we determined whether and how UCSD tracked and documented PI
effort on sponsored projects when no faculty salary support was requested or reimbursed by the
Federal Government.
      To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in appointment letters or other documentation supporting salaries and
wages paid to the amounts recorded in the UCSD Distribution of Payroll Expense Summary for
each individual in our selected sample. We recalculated salary and wage costs charged to NSF
projects by using the salary shown on supporting documentation and apportioning it by the period
of time represented on the PARs or monthly time records. We also reviewed labor transactions to
determine whether UCSD followed Federal, NSF, and University requirements applicable to
charging labor costs to NSF projects.
       Timeliness is an important aspect of the PAR labor effort reporting system because
certifications of actual effort are made after the reporting period, and thus timely PAR review and
approval impacts the reliability of the certification. To evaluate whether UCSD officials approved
and signed PARs in a timely manner, we compared the date the PAR reporting period ended to the
date the reports were approved and signed. Timeliness was based on UCSD’s internal policy
requiring (i) an approximate two-month adjustment period to complete the closing process, (ii) a
two-week period for OPAFS to generate and distribute the PARs to the Academic Departments,
and (iii) a 15-day period from date of PAR printing to certification by the PI or other designated
responsible official.


                                                 3
      Finally, we reviewed prior audit reports on UCSD’s Federal grants management program
performed by OMB Circular A-133 auditors and the University’s internal auditors to determine
whether there were any audit findings and recommendations on the labor effort reporting system.
Specifically, we interviewed Internal Audit staff and reviewed the working papers, as needed, to
gain an understanding of the scope and procedures used in their audits of UCSD’s payroll
distribution reporting system and/or University management of labor costs charged to Federal
projects. Review of A-133 audit reports was performed to ascertain the actual audit scope and the
audit procedures used to support any findings of noncompliance or internal control weaknesses
relating to payroll distribution or effort reporting.
     Onsite audit work at the UCSD campus was performed during a 2-week period in May 2007
and an additional 4-week period in September and October 2007. The remainder of the audit work
was completed through phone interviews, emails, and documentation requests through January
2008. We were engaged to conduct the audit by the NSF-OIG, and the audit was conducted in
accordance with the Comptroller General’s Government Auditing Standards and accordingly
included such tests of accounting records and other auditing procedures, as we considered
necessary, to fully address the audit objectives.




                                               4
                                                FINDINGS AND RECOMMENDATIONS

1. Insufficient Administrative Oversight of the University’s PAR System Affects Reliability
   of Effort Reports
        Federal regulations require that salary and wage charges to sponsored projects be
supported by labor effort reports signed and approved by the employee or an official who is in a
position to know whether the work was performed. Such reports are required to represent 100
percent of an individual’s activity and provide after-the-fact confirmation or determination that the
reported effort reasonably represents the actual employee effort expended on sponsored projects.
Although Federal requirements do not specify when a labor effort report should be completed,
University officials should provide the after-the-fact confirmation as close to the end of the
reporting period as possible to ensure its reliability.
       Our review of 30 sampled employees disclosed that UCSD’s labor effort reports generally
support the FY 2007 salary costs of $1,194,918 directly charged to NSF grants. However, UCSD
needs to improve its internal controls for its Personnel Activity Report (PAR) system, used by 23
or the 30 sample employees,1 to ensure after-the-fact effort certifications are timely and reliable
for confirming the reasonableness of the actual work performed on Federal sponsored projects.
Our review of the 69 PAR certifications for 23 sample employees and monthly time sheets for the
remaining seven employees disclosed the following control weaknesses:

       •      Sixty of the 69 PARs, representing 64 percent of total NSF salary charges tested, were
              certified 5 to 516 days late after the University’s due date or lacked a documented
              certification date.

       •      Two of the 23 employees submitting PARs had six effort certification reports that were
              either not signed or did not include the proper confirmation of the reported labor effort on
              NSF projects.

       •      Four employees reported 5 to 20 percent of their labor effort as expended on administrative
              activities not directly benefiting the NSF sponsored projects.

       •      Three employees improperly charged salaries to sponsored projects exceeding NSF’s
              faculty salary limitations or UCSD’s incentive award policies.
        Without adequate controls for certifying labor effort reports, UCSD can provide less
assurance to Federal sponsoring agencies that PARs are reliable in reasonably supporting salary
and wages charged to sponsored projects. Specifically, the University overcharged (i) $35,050
(three percent) of salary charges to NSF awards for activities not directly benefiting the sponsored
projects and (ii) an additional $16,267 (one percent) for salaries exceeding NSF or University
compensation policies. In addition, UCSD lacked adequate PAR certifications to support an
additional $49,595 (four percent) of FY 2006 NSF salary charges reviewed. Furthermore, late
PAR certification or inadequate documentation to determine approval dates for 64 percent of NSF
salary charges reviewed increases the risk that such certifications are not reliable, particularly
given that 11 percent of such labor costs were certified more than six months late or were not
dated.    The significant nature of these control weaknesses raises concerns about the
                                                            
1
        The remaining seven employees worked in SIO and used monthly time sheets to validate their salary charges
to NSF projects.

                                                               5
reasonableness and allowability of the remaining $27.5 million of FY 2006 labor charges to NSF
grants, and could affect the reliability of the salary portion of UCSD’s other $629 million of
Federal awards.
        These weaknesses occurred because UCSD has not established adequate internal controls
to provide for effective management and oversight of its labor effort reporting system.
Specifically, the University has not updated its PAR timeliness standards in recent years or
defined work activities included in “institutional base salary” for its employees as needed to
clarify which of those activities are not allowed to be charged to Federal sponsored projects. Also,
given the decentralized nature of the UCSD’s Federal grants management program, it is essential
that University administration adequately communicate the Federal and UCSD policies and
procedures for which individual Departments are responsible and ensure cognizant personnel
receive adequate training on the labor effort reporting process. All UCSD Departments need to
fully understand and comply with established PAR procedures and processes. In addition, the
University has not performed a sufficiently comprehensive independent internal evaluation of its
labor effort reporting system, as Federally mandated, to ensure its effectiveness and full
compliance with Federal requirements, forfeiting an opportunity to identify and address needed
improvements.
OMB Requirements for Labor Effort Reporting
        OMB Circular A-21, Cost Principles for Educational Institutions, requires certification of
labor effort/activity contributed by employees on Federal awards. Specifically, paragraph J.10.b
requires that wages and salaries charged to NSF awards reasonably reflect the actual labor effort
contributed by the employee to meet the objectives of the award. While a university can initially
charge NSF awards based on estimates of labor effort that are expected to be contributed, the
University is expected to subsequently confirm that the level of effort reported was consistent with
the actual effort expended. Accordingly, the system must provide for after-the-fact confirmation
of employee activity by a responsible person with “suitable means of verification that the work
was performed.” The Circular also requires that the University provide for periodic independent
internal evaluations to ensure the system’s effectiveness and compliance with the Federal
standards.

        Furthermore, paragraph A.2.d. of Circular A-21 recognizes that each institution “should
employ sound management practices” in applying the Federal cost principles for charging costs on
sponsored projects. Specifically, “the recipient institution is responsible for ensuring that costs
charged to a sponsored agreement are allowable, allocable, and reasonable under these cost
principles” and “must provide for adequate documentation to support costs charged to sponsored
agreements.”2 Thus, UCSD is required to have written procedures to ensure costs charged to
sponsored projects are in full compliance with Federal cost principles and the terms and conditions
of the sponsored agreement.
        Consistent with the Circular A-21 requirement for “sound business management practices,”
OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organization,3 requires entities

                                                            
2
          Paragraphs C.4.d.(1) and A.2.e., respectively, of OMB Circular A-21, Cost Principles for Educational
Institutions.
3
          Section .21 of OMB Circular A-110, requires that a grantee’s financial management system provide for
“Effective control over and accountability for all funds, property, and assets. . . written procedures for determining the

                                                               6
receiving Federal awards to establish and maintain internal controls that are designed to
reasonably ensure compliance with Federal laws, regulations, and program compliance. Further,
OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
defines internal controls as a “process effected by an entity’s management and personnel, designed
to provide reasonable assurance regarding the achievement of objectives in the following
categories: (1) Effectiveness and efficiency of operations; (2) Reliability of financial reporting;
and (3) Compliance with applicable laws and regulations.” Internal control is considered a major
part of managing an organization and comprises the plans, methods, and procedures used to meet
missions, goals, and objectives. Management sets the objectives, puts the control mechanisms in
place, and monitors, and evaluates whether the control is operating as intended. People are what
make internal control work, thus sufficiently trained personnel in an organization and clear job
descriptions and responsibilities are critical elements of a successful internal control program.
UCSD’s Payroll Activity Reporting System
        Pursuant to the OMB Circular A-21 requirements, UCSD utilizes Personnel Action
Reports (PARs) or monthly timesheets to document the after-the-fact certification of the
reasonableness of employee salary charges to Federal sponsored projects. Of the 30 sample
employees, 23 participated in the PAR certification process and seven submitted monthly time
records. The Office of Post Award Financial Services (OPAFS) is responsible for compiling and
distributing the PARs to each Academic Department on a quarterly basis. The employee, project
PI, or a responsible person with “firsthand knowledge of the work performed” is required to
review and approve the reported labor effort on the PARs. Each Department is responsible for
retaining the original signed PARs and providing copies to the OPAFS. The University’s
quarterly PAR distribution schedule follows:

                 Quarter Months included                                                           Run date                                      Date mailed
                 Summer               July, August, September                                      November ledger close                         December
                 Fall                 October, November, December                                  February ledger close                         March
                 Winter               January, February, March                                     May ledger close                              June
                 Spring               April, May, June                                             August ledger close                           September


UCSD’s timeliness standard, drafted in 1984, requires the PARs to be returned to OPAFS within
15 days of receipt. However, the PAR itself requires the certified report to be returned to OPAFS
15 days from the printing date.
PAR Certifications Need to be More Timely and Adequately Support Labor Charges
      Although Federal regulations do not specify when labor effort reports should be reviewed
and certified, UCSD has established timeframes for review and approval of PARs to ensure a
timely and reliable certification process. From each quarterly reporting period, the University
allows 15 days from the printing date to distribute and obtain PI review and approval. In addition
to signing the report, PAR procedures require the certifying officials to include a separate notation
of the actual effort worked on each sponsored project, even if such effort is the same as the printed
figure on the PARs. However, review of 69 PARs disclosed that (i) 60 reports were submitted late

                                                                                                                                                                                                   
reasonableness, allocability and allowability of costs in accordance with the provisions of the applicable cost
principles and terms and conditions of the award.”

                                                                                               7
or not dated and (ii) six reports were either not signed or did not include the proper certification of
the reported NSF labor effort.


Late Effort Reports
       Specifically, for 54 of the 69 PARs reviewed, representing $707,541 (59 percent) of total
NSF labor charges tested, UCSD certifying officials did not approve the PARs within the 15-day
turnaround period, and in 9 instances, took from 226 to 516 days, to complete the certification. In
addition, six PARs were not dated, thus precluding an evaluation of certification timeliness for an
additional $53,763 or five percent of NSF salary charges reviewed. Recognizing that 7 of the 30
sampled employees did not participate in the quarterly PAR effort reporting system, our review
disclosed that 22 out of 23 PAR personnel (96 percent) submitted one or more reports after the
University’s established due date. The following table summarizes the number of days beyond the
15-day turnaround time that officials took to review and approve their PARs.



                         Number of Days Certified After UCSD Due Date

                                               % of Total          Applicable       Percentage of
            Days Late             # PARs     PARs Reviewed          Salaries        Total Salaries
                                                                                      Reviewed
              1 - 30                 24             35%             $406,211            34%
              31-60                  4                6%              30,231              3%
              61-90                  15             22%              176,674             15%
              91-120                 1                1%               5,195             < 1%
             121-150                 1                1%              16,750              1%
             151-180                N/A             N/A                N/A               N/A
              > 180                  9              13%               72,480              6%

      PARS Certified Late            54            78%             $707,541              59%
          Not Dated                  6                9%             53,763               5%
             Subtotal                60            87%              761,304              64%
     PARS Certified On-Time          9              13%             140,476              12%
           PAR Totals                69            100%            $901,780              76%
      7 Sampled Employees Not       N/A               N/A           293,138              24%
      Using PARs Certifications

    Total Salaries Reviewed         N/A               N/A        $1,194,918             100%




                                                  8
        Timely PAR approval is essential to ensure labor charges to NSF grants are reliable
because certifying officials are generally relying on their memories when approving reported work
activity for themselves and the individuals that work for them. UCSD officials must remember as
far back as six and a half months4 to confirm such employee activity. PIs can have multiple
awards and many employees for whom they are responsible, which increases the risk that the PI’s
memory of the amount and type of activities performed will be less reliable as time increases past
the established due date. Thus, limiting the review and certification of PARs to the shortest
amount of time possible helps ensure a more reliable certification of labor costs associated with
such activities on Federal awards.
Incomplete Effort Reports Result in Lack of Adequate Certification for NSF Salary Charges
        Of the 69 PARs reviewed, six reports (nine percent) did not provide adequate
documentation to validate the actual work performed by two sample employees on NSF projects.
Specifically, contrary to the University’s PAR procedures, (i) one employee did not sign his four
quarterly PARs to confirm the reasonableness of $40,020 of salary charges and (i) a second
individual did not provide the separate notation of his actual effort for $9,575 of NSF salary
charges. As a result, a total of $49,595, or four percent of the FY 2006 salary charges tested,
lacked sufficient documentation to support the reasonableness of actual effort devoted by the two
employees to the NSF projects charged. While we were able to independently validate that the
two employees actually worked on the subject NSF projects by interviewing other key personnel
in the applicable Departments, such oversights in properly approving PARs can lead to inaccurate
labor effort reporting and should not be overlooked by UCSD management. University officials
stated that, when its new automated effort reporting system becomes fully operational in the spring
of 2008, such errors will be automatically detected and the effort report rejected.
Administrative Time Incorrectly Charged Direct to NSF Awards
        Interviews of the 30 sampled employees identified four UCSD employees who incorrectly
charged 5 to 20 percent labor effort to NSF projects for time spent on administrative functions that
did not directly benefit the NSF grants. These activities included employee time spent working on
writing grant proposals and/or participating in University committees and totaled $35,050 (three
percent) of the NSF salary charges reviewed (see Appendix A-1). Specific details for the four
employees follow:

              •       A PI and a staff member, both funded 100 percent by NSF, estimated spending 10 to
                      15 percent of their time writing grant proposals, peer reviewing grant proposals for
                      Federal sponsoring agencies, or working on University committees.

              •       Another PI was 100% funded by Federal sponsored projects (68 percent by NSF), but
                      estimated spending 20 percent of his time writing grant proposals.

              •       A programmer analyst was funded 100 percent by sponsored projects (50 percent by
                      NSF), but estimated 5 percent effort was spent assisting in the grant proposal writing
                      process.

                                                            
4
         For the quarterly PARs, the amount of time certifying officials have to recall work activities is a minimum
of 6.5 months because the report period covers three months, compilation and distribution takes about three month,
and approval and return takes 15 days.

                                                               9
        Of particular concern, several of the subject employees interviewed, representing three
different departments, stated that this problem occurred because the University has not established
job cost accounts for their use when performing administrative-type work such as grant proposal
writing and University committees. Therefore, time spent on these unrelated activities was
incorrectly charged to NSF and other Federal projects, rather than to University funds or as part of
its Facilities and Administrative costs as required by Federal regulations. Given that UCSD had
total FY 2006 Federal grant expenditures of $733 million, of which 27 percent5 was for salaries
and wages, such improper charges for PIs and other staff working on such administrative-type
tasks could be significant.
Salary Charges Exceed NSF and UCSD Compensation Limitations
      UCSD improperly charged salaries for three sample employees that did not comply with
NSF’s salary limitations for faculty members or the University’s incentive award policies. Such
noncompliance resulted in unallowable salary costs being charged to NSF sponsored projects.
NSF’s Two-Ninths Rule
        NSF’s policy for funding faculty salaries states that “. . . funding of summer salaries
(known as NSF’s two-ninths rule) . . . will not include funding for an individual investigator which
exceeds two-ninths of the academic year salary. This limit includes summer salary received from
all NSF-funded grants.”6 However, during the summer of 2005, one PI improperly charged three
summer months of compensation to two NSF projects. This occurred because both the PI and
cognizant Departmental business officer mistakenly believed it was allowable if the compensation
was funded by two separate NSF grants; with one grant paying for two months salary and the
other award for the third month’s salary. As a result, the University overcharged NSF $13,267 in
labor costs (see Appendix A).
    Employee Bonuses Incorrectly Allocated to NSF Grants
       Pursuant to UCSD’s Disclosure Statement,7 its incentive award policy provides two
different methods for charging employee bonuses to Federal sponsored projects, depending on
whether such costs are directly or indirectly charged. Specifically, if the bonus costs are directly
charged to the grant, then the amount must be allocated on a pro rata basis relative to the
individual’s direct salary charges to the subject grant. However, if the bonus costs are indirectly
allocated to the sponsored project, the total amount is funded by the University’s central
assessment pool. But the audit found that the University did not comply with the subject policy
and procedures when charging the costs for incentive awards received by of two of the sample
employees.

             •        One employee was given a $5,000 incentive award, of which $4,500 was improperly
                      charged directly to two NSF grants. Using the required pro rata basis, the bonus
                      amount charged to NSF should have been $2,500 based on the individual’s 50 percent
                      salary charges to two subject grants: resulting in an overcharge of $2,000 (see
                      Appendix A).

                                                            
5
         Of the total FY 2006 USCD expenditures of $104 million charged to NSF grants, $28 million, or 27 percent,
was for labor costs.
6
         Excerpt from Paragraph V.B.1.a.(ii)(b) of NSF’s Award and Administration Guidelines.
7
         OMB Circular A-21 requires an educational institution to file a Disclosure Statement (DS-2) to delineate its
cost accounting practices.

                                                               10
       •   A second employee was given a $1,000 incentive award, which was funded through
           the UCSD’s central assessment pool, but also inadvertently charged directly to an NSF
           grant. The $1,000 NSF amount is clearly an unallowable grant cost per the
           University’s procedures (see Appendix A).
       These improper charges occurred because cognizant xxxxxxxxxxxxxxxxxx officials were
not aware of UCSD’s incentive award policies and procedures. The PIs and senior researchers
interviewed stated that an employee’s incentive award is primarily based on the extra effort or
exceptional contribution made by the individual to specific research projects. As such, they
believed that the subject bonus costs were properly allocated to the benefiting projects and that it
would be inequitable to allocate such costs using a pro rata basis relative to employee’s
compensation from all funding sources. Nevertheless, the xxxxxxxx xxxxxxxxxx practice was
not consistent with UCSD policy and was not specifically disclosed to NSF and approved through
the proposal process for the subject grants.
Potential Excess Labor Charges to NSF Projects
        Without timely or appropriate controls for certifying labor effort reports, UCSD can
provide less assurance to NSF that PARs are reliable in reasonably supporting salary and wages
charged to sponsored projects. As discussed in the above report sections, control weaknesses
resulted in the University (i) overcharging $51,317 (four percent) of total salary charges to NSF
awards for seven employees (see Appendix A) and (ii) lacking adequate labor effort certifications
for $49,595 (four percent) of NSF salary charges for two additional employees. In addition, late
PAR certification or inadequate documentation to determine approval dates for 64 percent of NSF
salary charges reviewed increases the risk that such certifications are not reliable, particularly
given that 11 percent of such labor costs were certified more than six months late or were not
dated. These control weaknesses could affect the remaining $27.5 million of FY 2006 labor
charges to NSF grants, as well as the salary portion of UCSD’s other $629 million of Federal
awards.
Factors Contributing to Effort Reporting Weaknesses
        These weaknesses occurred because the UCSD had not established adequate internal
controls to provide for proper management and oversight of its payroll distribution and labor effort
reporting system to mitigate the risk of the University’s decentralized organizational structure for
Federal grants management. With each of UCSD’s 14 Departments and offices primarily
responsible for management of its own portfolio of Federal grants, it is imperative for the
University to ensure that (i) detailed written policies, procedures, and implementing guidance are
established for its labor effort reporting system, (ii) adequate training is provided to all personnel
involved in the effort reporting process to ensure a full understanding of job responsibilities, and
(iii) monitoring of campus compliance is enhanced to ensure proper implementation of the
established policies and procedures. Furthermore, UCSD has not performed a comprehensive
independent internal evaluation to ensure that the PAR system was effective and in full
compliance with Federal standards, thereby forfeiting an opportunity to identify and address
needed improvements.




                                                 11
Updated Timeliness Standards and Enhanced Monitoring Needed to Ensure Timely and Reliable
PAR Labor Certifications
       While UCSD has issued appropriate policy establishing timeframes for PAR compilation
and distribution at the end of each quarterly reporting period, it has not updated its 15-day
turnaround time for PAR review and certification since 1984. In addition, the University has
neither (i) provided formal training to ensure responsible campus personnel are aware of the
importance of timely and accurate PAR certifications nor (ii) established adequate monitoring
procedures or controls to achieve such objectives.

•    Out of Date and Ineffective PAR Timeliness Policy - Interviews disclosed that the 15-day
     turnaround policy was not widely known by faculty and staff with PAR certification
     responsibilities because the UCSD did not provide formal training to all campus personnel
     with labor effort reporting responsibilities. As a result, campus personnel generally regarded
     the due date printed on the PAR as a theoretical goal rather than a strict deadline; thus
     meeting the due date has not been elevated to a status of significant importance within the
     University. This occurred because the 15 days allowed for PAR distribution, review,
     certification, and return to both Departmental offices and OPAFS was viewed as
     unreasonable and thus not enforceable. Interviews with personnel facilitating the process at
     the Departmental level confirmed the challenges of meeting the 15-day turnaround time
     associated with obtaining from certifying officials approvals for as many as 4,000 PARs on a
     quarterly basis. As such, the officials stated that very few PARs were returned to OPAFS by
     the preprinted due date.

•    Insufficient Central Oversight and Lack of Consistent Department Controls – While OPAFS
     is primarily responsible for central oversight of UCSD’s labor effort reporting process, it
     lacked established monitoring processes to ensure Departments were timely and accurately
     completing the PAR labor certifications. Specifically, OPAFS tracked outstanding PARs
     after their initial distribution to the Departments and performed limited follow-up. Upon
     their return, the PARs were noted as received and a Missing PARs Report was sent to each
     Department identifying the reports outstanding beyond the 15-day due date. The report
     listing was cumulative and included all outstanding PARs from the current as well as all
     previous quarterly reporting periods. However, OPAFS compiled and sent the status report
     just a few weeks after the PARs were initially distributed to the Departments and did not
     perform any additional follow-up efforts. In addition, we found no evidence that OPAFS
     reviewed the PARs for completeness to ensure certifying officials had properly provided (i)
     the separate notation of actual effort expended on each sponsored project, as required by
     University procedures, and (ii) explanations of any variances noted. In fact, the OPAFS
     employee, designated with primary responsibility for PAR processing, stated her review
     consisted solely of tracking the return of the reports.
            Furthermore, while each UCSD Department is assigned primary responsibility for
     ensuring that PAR certifications comply with established University policies, the
     Departments also did not have established procedures for ensuring timely and accurate PAR
     approvals. Without formal labor effort training, cognizant Departmental personnel and
     certifying officials were not aware of the importance of the labor effort reporting process to
     validate the significant sums of salaries and wages charged to Federal sponsored projects. In
     one instance, when interviewing Business Officers in a Department, we observed that there
     were very few PARs certified during one quarter of FY 2007 due to a key employee’s
     absence. While FY 2007 was outside our audit period, we noted this situation to indicate the
                                               12
     lack of sufficient University emphasis given to the PAR labor effort certification process,
     since neither the Department nor OPAFS were aware of the significant number of missing
     PAR effort certifications. Also, it is another example where enhanced OPAFS central
     oversight and monitoring of PAR certifications would be beneficial to promoting a more
     reliable University labor effort certification process.
            Currently, UCSD is implementing a new automated effort reporting system that should
     be fully operational in the spring of 2008. Since the new system will allow certifying
     officials to review and certify the PARs online, officials believe the time period to certify the
     reports should be shortened since the PARs will no longer be required to be physically
     distributed and returned. In addition, the system will automatically detect and reject PARs
     not properly completed in accordance with University procedures, and thus ensure that such
     errors can be readily identified for prompt resolution.
           While we agree that the automated system should allow for easier monitoring of PAR
     timeliness and completeness, it is essential that UCSD establish formal monitoring processes
     and procedures. Monitoring processes should include periodic reminder notices for late
     PARs using an increasingly graduated scale to higher levels of UCSD management officials,
     such as the Department Chair, the Dean, and the Provost, as the period of delinquency
     increases. Also, senior management needs to explicitly notify all employees involved with
     the PAR process of the magnitude of the PAR timeliness issues and emphasize the
     importance of timely certification. To achieve an effective, reliable effort reporting system,
     senior management officials should be accountable for timely PAR completion.
Written Standards Needed to Preclude Salary Overcharges to Federal Awards
         UCSD certifying officials approved PARs reflecting more effort than actually worked or
allowed on NSF awards because they did not have a clear understanding of employee activities not
directly benefiting Federal sponsored projects or limitations on certain types of employee
compensation. This occurred due to the lack of formal written UCSD standards (i) defining
institutional base salary for employees and (ii) instituting NSF’s two month limitation on faculty
summer salaries. The lack of such established University policies and procedures, coupled with
the lack of formal labor effort training to ensure that certifying officials clearly understood PAR
certification responsibilities, resulted in the inappropriate NSF salary charges identified during our
audit.

•      Defining Institutional Base Salary – Explicit written guidance is essential to clearly define
       institutional base salary for the various classes of employees charging salaries to sponsored
       projects; the different job activities related to instruction, research, and general
       administration; and which of those activities should be charged to University funds versus
       Federal grant funds. Without such guidance and formal training, UCSD faculty and
       research scientists interviewed improperly believed that if their primarily role was research,
       100 percent of their effort was required to be charged to their Federal sponsored projects,
       even for time spent on administrative-type responsibilities such as grant proposal writing,
       working on University committees, public service, etc. By not defining the activities
       associated with employee institutional base salary, UCSD Departmental grants personnel
       were not aware of the need to establish appropriate job account numbers to separately
       account for employee effort spent on performing institutional-related activities that did not
       directly benefit Federal sponsored projects.


                                                 13
•     NSF’s Two-Ninths Rule – UCSD’s policy for summer faculty compensation is not
      consistent with NSF’s two-ninths rule limiting summer salaries to two months funding from
      all NSF grants. Specifically, the University’s Academic Personnel Manual provides that
      "summer salaries are limited to a 57 day period, or one-third of the nine-month annual
      salary rate." Cognizant Academic Personnel Office officials stated that while the
      University may pay the entire three-month summer compensation for faculty members,
      another funding source is found for the extra month. Nevertheless, the University needs to
      include a specific reference to NSF’s two-ninths rule in its written standards to ensure
      compliance with NSF award terms and conditions and to preclude any overcharges of
      excessive faculty summer salaries to its sponsored projects.
•     Inconsistent Formal Employee Training - UCSD has a comprehensive and well-publicized
      labor effort training program on its user-friendly web site; encompassing a wide range of
      Federal grants management subjects, including most labor effort reporting policies and
      procedures. However, even though PIs are assigned primary responsibility for managing
      their Federal grants, they are not required to take the online labor effort training program.
      Thus, few of the sample employees interviewed during our audit had actually experienced
      any formal labor effort training. Because the PIs’ primary focus is the research, having the
      policies available on the UCSD website is not sufficient to ensure the PIs adequately
      understand University and Federal labor effort reporting requirements and properly apply
      them to the sponsored projects for which they are responsible.
Independent Internal Evaluation of the Payroll Distribution System Could be Improved
        Contrary to OMB Circular A-21 requirements, UCSD has not conducted a comprehensive
independent evaluation of its payroll distribution and effort reporting system. Specifically, the
University’s Audit and Management Advisory Services (AMAS) develops an Internal Audit Plan
that includes reviews of the UCSD’s 35 core business functions at least once every 5 years based
on a risk assessment of various factors. One of these core business functions is Cost Distribution
– Effort Reporting. The Annual Audit Plan also includes Departmental audits that may include a
payroll component. However, the University-wide assessment of the labor effort reporting system
has not been sufficiently comprehensive nor has it been performed frequently enough to identify
the internal control deficiencies noted during this audit. Accordingly, the AMAS approach does
not satisfy the OMB requirement for a periodic overall assessment of the University’s payroll
distribution and labor effort reporting system to ensure its effectiveness and full compliance with
Federal standards.
        Such comprehensive evaluations would have likely disclosed the lack of sufficient internal
controls for proper management and oversight of its PAR system given the decentralized nature of
the UCSD’s Federal grants management program. A thorough evaluation could have identified
control weaknesses and recommended appropriate corrective actions. In particular, it will be
essential for USCD to conduct such an independent evaluation of its new automated labor effort
reporting system when it becomes operational to ensure its effectiveness and compliance with
Federal standards.




                                                14
Recommendations
       We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:
1.1    Work with the UCSD officials to establish an internal control structure that utilizes the
capabilities of its new automated effort reporting system to ensure a payroll distribution system
and labor effort reporting system that reasonably reflects the actual effort/activity employees
devote on sponsored projects. At a minimum, UCSD should take the following corrective actions:

       a. Develop a more realistic time frame for distributing and certifying effort reports and
          require the University’s Departments to monitor the timely completion of PARs within
          the established time frame.

              UCSD Response to 1.1a

              The University of California will update its policy to reflect a more reasonable time
              frame for distributing and certifying effort reports. The updated policy will be part
              of the accountability guidance that will be issued by the Office of the President to
              all campuses.

              Auditor’s Comments

              UCSD’s actions are fully responsive to the audit recommendation. During the
              audit resolution process the University should provide NSF with the new policy.

       b. Require Departments to ensure PAR certifications are accurately completed in
          accordance with University procedures including signatures and separate notation of
          actual effort spent on each sponsored project.

              UCSD Response to 1.1b

              The University believes that ECERT, a new automated system for meeting federal
              effort reporting requirements, will ensure accuracy and completeness of effort
              reports. The ECERT system, which is integrated with the campus payroll system,
              will not allow an effort report to be processed as certified without the required
              electronic signature and notation of actual effort worked by the employee during
              the period.

              Auditor’s Comments

              UCSD’s actions are fully responsive to the audit recommendations. During our
              audit we viewed a demonstration of ECERT, and agree that the automated system
              should eliminate discrepancies in accuracy and completeness of effort reports.

       c. Require the Office of Post Award Financial Services (OPAFS) to monitor the PAR
          certification processes at the Department level to ensure adequate procedures are in
          place to provide timely and accurate PAR certifications. Such monitoring procedures

                                               15
   should include periodic reminder notices to follow-up on late PARs using an
   increasingly graduated scale of notification to higher level management officials.

       UCSD Response to 1.1c

       A key member of the ECERT implementation team will be transitioning into a
       training and compliance coordinator position within OPAFS and will provide a
       resource for monitoring certification timeliness, providing training to departments,
       maintaining training materials and web content, and notifying management
       officials when departments are at risk of being out of compliance with federal
       requirements related to effort reporting.

       Auditor’s Comments

       UCSD’s actions are fully responsive to the audit recommendations. The individual
       to be transitioned has the requisite knowledge and experience to effectively monitor
       UCSD’s effort reporting processes.

d. Assign appropriate UCSD senior management officials, such as Department Chairs,
   specific accountability for timely and accurate PAR certifications.

       UCSD Response to 1.1d

       The University of California Office of the President is working with UC campuses
       to develop appropriate accountability for effort reporting. UCSD intends to
       commit senior level personnel to the tasks of developing and implementing
       accountability procedures for the campus.

       Auditor’s Comments

       Once implemented, UCSD’s proposed corrective actions should address our audit
       recommendations, provided its newly adopted accountability procedures assign
       clear accountability for effort reporting timeliness and accuracy to appropriate
       senior UCSD management official. The University should provide NSF with the
       new accountability policy.

e. Ensure senior UCSD management formally notify all campus staff involved in the
   PAR certification process of the magnitude of the late certification issue and emphasize
   the importance of timely and accurate PI review and certification of such reports within
   the University’s established time frame.
       UCSD Response to 1.1e

       The University will provide notification in conjunction with a notice regarding the
       new ECERT system which will be issued by the Vice Chancellors’ of Research,
       Academic Affairs, Health Sciences and Business Affairs to all applicable faculty
       and staff. This formal notification will emphasize that all effort must be certified in
       a timely manner, and will include hyper links to the site containing campus policies
       and accountability procedures for Effort Reporting.

                                         16
       Auditor’s Comments

       Once implemented, UCSD’s proposed corrective actions should address our audit
       recommendations. The University should provide a copy of the notification, when
       issued, to NSF.

f. Develop clear written procedures and guidance defining the typical instructional,
   research, and administrative work responsibilities included in the institutional base
   salary for various types of UCSD employees, and identifying which of those activities
   do not directly benefit and should not be charged to Federal awards.

       UCSD Response to 1.1f

       The University plans to transition a member of the current ECERT implementation
       team to a central office support role in the Office of Post Award Financial Services
       for the purpose of permitting an expanded review of existing procedures and
       guidance in place at UCSD, including those relating to allowable costs and
       institutional base salary.

       Auditor’s Comments

       Once implemented, UCSD’s proposed corrective actions should address our audit
       recommendations. The individual to be transitioned has the requisite knowledge
       and experience to effectively develop the appropriate guidance with respect to
       allowable costs and institutional base salary.

g. Implement a policy limiting charges to NSF sponsored projects for faculty summer
   salaries to two-ninths of an individual’s base institutional compensation from all NSF
   projects.

       UCSD Response to 1.1g

       The University agrees that the NSF two-ninths rule applies and believes it is
       addressed by existing policy which requires compliance with applicable Federal
       requirements contained in Office of Management and Budget Circulars A-21, Cost
       Principles for Educational Institutions, and A-110, Uniform Administrative
       Requirements for Grants and Other Agreements with Institutions of Higher
       Education, Hospitals, and Other Nonprofit Organizations. UCSD will apply
       additional personnel resources to analyze salary payments made to federally-
       sponsored employees and to work with campus departments to ensure knowledge
       of and compliance with the two-ninths rule.

       Auditor’s Comments

       Once implemented, UCSD’s proposed corrective actions should decrease the
       likelihood of further two-ninth rule violations. However, because violation of such
       a rule can be inadvertent and an understandable consequence of a program in which


                                        17
              research is emphasized in the summer months, we believe that addressing the two-
              ninths rule in the University’s written guidance and policies would be prudent.

       h. Require UCSD to perform a review to ensure Departments are properly implementing
          the University’s incentive award procedures and allocating the correct amounts to
          sponsored research projects.

              UCSD Response to 1.1h

              The University agrees that incentive award payments should be made in accordance
              with UCSD policy and representations to Federal agencies. One of the functions of
              the position to be established in OPAFS will be to periodically extract and analyze
              salary payments made to federally sponsored employees and to work with campus
              departments to ensure compliance with federal regulations such as incentive award
              allocation procedures.

              Auditor’s Comments

              Once implemented, UCSD’s proposed corrective actions should address our audit
              recommendations.

1.2     Work with the UCSD officials to ensure the existing labor effort training program
addresses Federal and UCSD requirements, is kept up to date, and that all officials involved in
PAR process take the training on a regular basis. Such training should include a thorough
discussion of PAR certification responsibilities/requirements and the various types of employee
activities that do not directly benefit and should, therefore, not be charged to Federal awards.

       UCSD Response to 1.2

       The University intends to assign to the new position in OPAFS responsibility for ensuring
       that procedures and guidance related to effort reporting are documented and made
       available to campus, and that training addresses these topics.

       Auditor’s Comments

       Once implemented, UCSD’s proposed corrective actions should address our audit
       recommendations. The individual to be transitioned has experience providing training on
       the new ECERT effort reporting system and is knowledgeable of effort reporting
       regulations, PAR certification requirements and allowable cost rules, and thus should be
       able to develop and deliver effective training programs.

1.3     Require UCSD to establish a formal requirement and conduct an independent evaluation of
the PAR system to ensure its effectiveness and full compliance with Federal, NSF, and University
standards. Such a requirement should include procedures to ensure an effective and systemic
review that will identify reasons for any deficiencies and make appropriate recommendations,
identify the specific office responsible for performing the evaluation, and how often such an
evaluation should be conducted.



                                              18
       UCSD Response to 1.3

       UCSD Audit & Management Advisory Services will periodically perform independent,
       comprehensive reviews of the ECERT system sufficient in scope to meet Federal and NSF
       requirements on an approximate three to five year cycle, with the frequency influenced by
       changes in systems, processes or regulations.

       Auditor’s Comments

       Once implemented, UCSD’s proposed corrective actions should address our audit
       recommendations.

1.4     Resolve the $85,128 in total questioned salary costs (see Appendix A) resulting from seven
employees overcharging NSF awards for excessive salary amounts or for work activities not
directly benefiting the research project.

       UCSD Response to 1.4

       UCSD management will coordinate with NSF program personnel to resolve all questioned
       costs.

       Auditor’s Comments

       UCSD’s planned actions are fully responsive to the audit recommendations.




                                               19
2. UCSD Lacks Comprehensive Policies to Ensure Full Compliance With Federal Grant
   Requirements

       Federal regulations require grant recipients to employ sound management practices and
have written procedures to ensure costs charged to sponsored projects are reasonable, allocable,
and allowable in accordance with Federal cost principles and the terms and conditions of the
award. However, the audit found that UCSD lacked an established procedure for computing an
estimated dollar amount for sponsored projects without any paid faculty or senior researcher labor
effort to include in the University’s organized research base. In addition, the University’s
established policy for extra faculty compensation on sponsored projects was not consistent with
Federal regulations. Such lack of adequate written procedures to ensure full compliance with
Federal cost principles could result in excessive indirect costs and salary and wages being charged
to NSF and all Federal sponsored projects. This occurred because of the lack of adequate UCSD
priority given to the task of ensuring that written University procedures were current and
appropriate to ensure grant charges were fully compliant with Federal cost principles.
Lack of UCSD Policy for Imputing PI Effort Devoted to Federal Sponsored Projects

        OMB Circular A-21 requires a payroll distribution system that will “reasonably reflect the
activity for which individuals are compensated by the institution.”8 The system must encompass
the time and effort expended by employees on both sponsored projects and all other activities on
an integrated basis. Further, a January 2001 OMB Clarification Memorandum9 provides
additional guidance for verification requirements for PI effort on sponsored projects. The
Memorandum makes clear that the payroll distribution system will include both PI salaries
charged directly to sponsored projects as well as salary-related cost sharing contributed. In
addition, the Memorandum states that “If a research sponsored agreement shows no faculty (or
senior researchers) effort, paid or unpaid by the Federal Government, an estimated amount must
be computed by the university and included in the organized research base” used for computing its
negotiated Federal indirect cost rate.
        However, contrary to the OMB Clarification Memorandum, we found that UCSD did not
have an established policy or process for imputing such PI effort to include in its organized
research base. The Director of Financial Analysis, who leads the development of the University’s
negotiated Federal indirect cost rate, stated that there was no need for such a process because
either PI salary is charged to the sponsored project or the level of PI effort is insignificant and
does not warrant reporting. However, UCSD was not able to provide any evidence to document
that the University had performed an evaluation of PI committed effort on its Federal sponsored
projects to support this assertion.
       In fact, we found that one of the seven PIs reviewed had not requested any salary support in
his NSF proposal budget, but indicated weekly participation in overseeing the project in the
narrative description portion of the proposal; a participation level for which effort should have
been imputed. Ultimately, the PI did charge summer salary to the subject award, but the approved
grant budget should have triggered a process to impute PI effort, as required by the OMB Circular
A-21 Clarifying Memorandum. It is clear that most Federally-funded research programs require
                                                            
8
      Paragraph J10.b.(2)(a)(ii) of OMB Circular A-21, Cost Principles for Educational Institutions.
9
      OMB Memorandum M-01-06, dated January 5, 2001, Clarification of OMB A-21 Treatment of Voluntary
Uncommitted Cost Sharing and Tuition Remission.


                                                               20
some level of committed faculty effort throughout the year to manage the work being performed to
ensure project objectives are being achieved.
        The OMB Memorandum makes it clear that when there is no faculty effort reported on
Federal sponsored projects, an estimated amount must be computed. Without the required process
to impute PI salary costs to include in the organized research base, UCSD’s Federal indirect cost
rate could be overstated and result in greater indirect costs paid by the Federal Government. For
example, other universities have estimated the imputed PI effort at approximately five percent of
total salary costs. In FY 2006, UCSD had total labor costs of over $28 million charged to NSF
grants and, using the five-percent imputed rate, $1.4 million should have been added to the
organized research base, thus lowering the University’s indirect cost rate applied to all Federal
grants. This occurred because the UCSD did not give adequate emphasis to keeping abreast of
new or revised changes to Federal grant regulations and performing a thorough evaluation to
determine the changes in University procedures required to address any revisions in Federal grant
requirements. Thus, while the OMB Clarification Memorandum was specifically referenced in the
OPAFS Contract and Grant Manual, the Director of Financial Analysis was the only campus
official interviewed during the audit that was familiar with the subject Memorandum.
UCSD Policy for Extra Academic Compensation Is Inconsistent With Federal Requirements
       OMB Circular A-21, paragraph J10.d.(1), provides specific Federal requirements for
determining the appropriate academic year salary rates for faculty members working on sponsored
projects. Specifically, the Circular delineates that faculty members, who function as consultants
or otherwise contribute to a sponsored research project conducted by another faculty member in
the same institution, require no additional compensation above institutional base salary because
such “intra university consulting is assumed to be untaken as a university obligation.” However,
in usual cases, Circular A-21 does provide for extra compensation but explicitly states that “any
charges for such work representing extra compensation above the base salary are allowable
provided that such consulting arrangements are specifically provided for in the agreement or
approved in writing by the sponsoring agency.” (emphasis added)

       However, contrary to A-21 requirements, UCSD’s policy did not require requesting prior
sponsoring agency approval for payment of such extra compensation to academic personnel.
Rather, the University’s Academic Personnel Manual only required a review of the Federal grant
to determine if such extra compensation was prohibited, as follows:
       "If not regularly engaged on the project concerned, a member of the faculty may,
      on occasion, receive additional compensation for consultant services on projects
      conducted under the auspices of the University. If the project is financed by
      extramural funds, the grant or contract should be examined to determine whether
      it prohibits such compensation.”
As a result, without following the required A-21 process, UCSD could have potentially charged
unallowable additional compensation for academic personnel to NSF and other Federal sponsored
projects. This occurred because the University believed that their established procedure was
consistent with the overall intent of the A-21 requirement for the payment of extra faculty
compensation for intra university consulting.




                                               21
Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the Director
of the Division of Institution and Award Support, coordinate with the cognizant audit agency, as
needed, to require UCSD to implement the following recommendations:
2.1    Develop a policy and establish a methodology for estimating the amount of faculty salary
costs to include in the organized research base for Federal sponsored agreements with no reported
PI labor effort. Ensure the calculation of such estimated amounts is supported by adequate
documentation and included in the organized research base for computing the Federal indirect cost
rate.

      UCSD Response to 2.1

      UCSD plans to require Principal Investigators to include a minimum percentage of effort
      on federal proposals and to track this effort tracked in accordance with campus policy.

      Auditor’s Comments

      Once implemented, UCSD’s proposed corrective actions should prevent situations in which
      Federal sponsored agreements have no reported PI labor effort. The University should
      include in its requirement a reminder that requested effort constitutes committed effort and
      must be applied to the program.


2.2 Revise UCSD policy for extra compensation for academic personnel to obtain prior Federal
grantor agency approval for faculty charges for providing intra-university consulting on sponsored
projects.

      UCSD Response to 2.2

      Because the policy cited is a university-wide policy, the University of California, Office of
      the President plans to take action to revise the Academic Personnel Manual to comply with
      the OMB A-21 requirements for obtaining approval to allow additional consulting income.

      Auditor’s Comments

      Once implemented, UCSD’s proposed corrective actions should address our audit
      recommendations. A copy of the revised policy should be provided to NSF.




                                               22
                                                                                  Appendix A

            Schedule of Questioned Salaries, Fringe Benefits and Related Indirect Costs
                                       Fiscal Year 2006


                         Administrative Costs Charged to NSF Projects
    Sample            Award          Salary          Fringe      Indirect
    Number            Number         Costs          Benefits      Costs            Total
      27            xxxxxxxxxx      $ 21,216         2,714       11,032            34,962

     6 (a)          Xxxxxxxxxx      $ 1,102           99           573             1,774

     6 (a)          Xxxxxxxxxx      $ 1,102           99           573             1,774

      22            Xxxxxxxxxx      $ 3,485           842         1,813            6,140

      31            Xxxxxxxxxx      $ 8,145           1,417       4,235           13,797

Subtotal                            $ 35,050          5,171      18,226            58,447


                                        Two-Ninths Rule
    Sample            Award          Salary          Fringe      Indirect
    Number            Number          Costs         Benefits      Costs             Total
     30 (b)         Xxxxxxxxxx      $ 13,267         1,666        6,899            21,832

Subtotal                            $ 13,267        1,666          6,899          21,832


                                       Incentive Awards
    Sample            Award          Salary          Fringe      Indirect
    Number           Number          Costs          Benefits      Costs            Total
     6(c)           Xxxxxxxxxx       $ 900             81          477             1,458

     6(c)           Xxxxxxxxxx       $1,100           99           583             1,782

      20            Xxxxxxxxxx       $ 1,000          89           520             1,609

Subtotal                            $ 3,000         269           1,580            4,849

TOTALS                              $ 51,317     7,106           26,705           85,128
Notes:
   a) Reflects 50/50% allocation
   b) Reflects questioning all charges to Award # xxxxxxxxxx
   c) Reflects 45/55% allocation to actual accounts charged for bonus
 


                                               23
     Appendix B




24
     
 




              



        25
26
27
28
      




29
